U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Antwan R. Cray v. Warden, FCI Coleman, No. 20-5132
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 19, 2020.
The government’s response is now due, after two extensions, on October 21, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 23, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5132
CRAY, ANTWAN R.
WARDEN, FCC COLEMAN - MEDIUM

ANTWAN R. CRAY
53343-018
FFC - COLEMAN - MEDIUM
UNIT A-3
COLEMAN, FL 33521-1032

